BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Heather Campbell, hereby certify that 1 unbound
copy and 40 bound copies of the foregoing Brief for the
Rutherford Institute and Cato Institute as Amici
Curiae in Support of Petitioner in 21-414, First
Midwest Bank, guardian of the estate of Michael D.
LaPorta, a disabled person v. City of Chicago, was sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day service and e-mail to
the following parties listed below, this 7th day of
October, 2021:
Marisa Christina Maleck
King & Spalding LLP
1700 Pennsylvania Ave. NW
Washington, DC 20006
(202) 737-0500
mmaleck@kslaw.com

Counsel for Petitioner
Myriam Zreczny Kasper
City of Chicago Department of Law
2 N. LaSalle Street
Suite 580
Chicago, IL 60602
(312) 744-3564
myriam.kasper@cityofchicago.org

Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

John W. Whitehead
Douglas R. McKusick
William E. Winters
The Rutherford Institute
109 Deerwood Road
Charlottesville, VA 22911
(434) 978-3888

Clark M. Neily III
Jay R. Schweikert
Cato Institute
1000 Mass. Ave., N.W.
Washington, DC 20001
(202) 216-1461
Robert T. Schofield
Counsel of Record
Robert S. Rosborough IV
Whiteman Osterman & Hanna LLP
One Commerce Plaza
Albany, New York 12260
(518) 487-7600

rrosborough@woh.com
Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 7, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

!I~

Notary~/ef .

t2

dtJ i}-(

~

[seal]

JOHN D. GALI.AGHEA
Notary Public, Slate of Ohio
My Commission EKpires
r12br •:iry 14, 2023

